                    L
                     *'   -
                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS
                                                                                         ii
                               CLOSEOUT MEMORANDUM                                       1
TO: AIGI      File Number: I97090046                                            Date! 02 March 2002
                                                                                         I1

Subject: Closeout Memo


                                                                                        I1
     There was no closeout written at the time this case was closed. The following information was
     extracted fiom the file in conformance with standard closeout documents.           1
                                                                                        'I
     Our office was informed that the subject1 allegedly committed a violation of current employee
                                                                                      1)
     restriction (representation). We investigated complaints of I) conflict of intxests     based on the
     subject's service on a committee2while serving at NSF; and 2) improper billing practices by an
     outside firm3. We determined that the subject had not consulted with N S conflicts  ~       officials
                                                                                      I
     regarding his committee service, but that he did not have any actual conflicts arising fi-om this
     service. We also determined that he had inadvertently signed a declination letter and a Form 1036
                                                                                     I
     (later redacted) for proposals from his home institution4but he had not participated in discussions
     regarding the proposals. We advised him to avoid any contact with propdkals from his home
                                                                                     I
     institution in the future. The outside firm billing complaint was considered        an administrative
                                                                                    (1
     dispute, and was referred to the appropriate research division5in NSF for action.

     Accordingly this case is closed.
                                                                                    ~
